Nos. 19-1257 and 1258

 

 

IN THE

Supreme Court of the Anited States

MARK BRNOVICH ATTORNEY GENERAL OF ARIZONA
ET AL., PETITIONERS,
v.

DEMOCRATIC NATIONAL COMMITTEE, ET AL.
ARIZONA REPUBLICAN PARTY, ET AL., PETITIONERS,

Vv.
DEMOCRATIC NATIONAL COMMITTEE, ET AL.

ON WRIT OF CERTIORARI
TO THE UNITED STATES OF COURT OF APPEALS
FOR THE NINTH CIRCUIT

BRIEF OF STATE AND LOCAL ELECTION OFFICIALS
AS AMICI CURIAE IN SUPPORT OF RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,781 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 19, 2021.

 

Colin Casey Fagan
Wilson-Epes Printing Co., Inc.
